FDIC Office of Inspector General Press Release: Officer of now defunct new frontier bank pleads guilty to charges related to the bank's collapse
News Release
United States Department of Justice
The United States Attorney's Office
District of Maryland, Norther Division
CONTACT: Vickie E. LeDuc, Public Information Officer
Tel: 410-209-4885
Fax: FAX 410-962-3091
Email: Vickie.LeDuc@usdoj.gov
FOR IMMEDIATE RELEASE
February 13, 2013
BOWIE REALTOR PLEADS GUILTY TO $2 MILLION MORTGAGE FRAUD SCHEME
Greenbelt, Maryland - Michael Abobor, age 38, of Bowie, Maryland, pleaded guilty late yesterday, on what would have been the first day of his trial, to wire fraud in connection with a mortgage fraud scheme involving intended losses of at least $2 million.
The guilty plea was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Inspector General Jon T. Rymer of the Federal Deposit Insurance Corporation; Special Agent in Charge David Beach of the United States Secret Service â Washington Field Office; and Special Agent in Charge Joe Clarke of the Housing and Urban Development Office of Inspector General - Office of Investigations.
According to his plea agreement, in the Spring and Summer of 2007, Abobor, a licensed realtor, submitted fraudulent loan applications for the purchase of homes in Maryland.  Abobor purchased two homes in his own name, and purchased the rest of the homes using the names, and credit, of various friends and family members.  Each loan application contained fraudulent information about the borrower's earnings (including their monthly income and their assets) and employers, of which Abobor had full knowledge.  Some of these applications contained fake documents, like doctored W-2s and paystubs; and all of them alleged that the borrower made much more money than he or she really did.  Based on these fraudulent application materials, the victim lending institutions funded loans that totaled hundreds of thousands of dollars, resulting in substantial commission payments to Abobor.  Eventually, each of these loans fell into default, causing large losses to the victims.  Abobor also collected large amounts of money in additional payments funded by the mortgages that were disguised as "renovation payments."
For example, on July 25, 2007, Abobor facilitated the purchase of a home in Bowie, and while serving as the buyer's real estate agent, knowingly submitted a false loan application on the buyer's behalf.  The loan application, among other things, vastly inflated the buyer's monthly income figures.  Relying upon these false representations, the lending institution funded a loan of $375,000.  As part of this transaction, Abobor received a commission payment of $5,499, and also received over $37,000 in "renovation" payments.
In all, Abobor arranged at least seven fraudulent real estate transactions, caused more than $2,000,000 in intended losses to victim financial institutions, took in excess of $20,000 in fraudulent real estate commissions, and collected over $270,000 in extra money from the transactions in the form of third party disbursements for renovations that were never completed.
Abobor faces a maximum sentence of 30 years in prison and a fine of $1 million.  As part of his plea agreement, Abobor will be ordered to forfeit$2,026,205, and the order of forfeiture may include assets directly traceable to his offenses, substitute assets, and/or a money judgment equal to the value of the property derived from, or involved in, the scheme.   U.S. District Judge Peter J. Messitte scheduled Abobor's sentencing for April 18, 2013.
The Maryland Mortgage Fraud Task Force was established to unify the agencies that regulate and investigate mortgage fraud and promote the early detection, identification, prevention and prosecution of mortgage fraud schemes. This case, as well as other cases brought by members of the Task Force, demonstrates the commitment of law enforcement agencies to protect consumers from fraud and promote the integrity of the credit markets. Information about mortgage fraud prosecutions is available www.justice.gov/usao/md/Mortgage-Fraud/index.html.
Today's announcement is part of efforts underway by President Obama's Financial Fraud Enforcement Task Force (FFETF) which was created in November 2009 to wage an aggressive, coordinated and proactive effort to investigate and prosecute financial crimes. With more than 20 federal agencies, 94 U.S. attorneys' offices and state and local partners, it's the broadest coalition of law enforcement, investigatory and regulatory agencies ever assembled to combat fraud. Since its formation, the task force has made great strides in facilitating increased investigation and prosecution of financial crimes; enhancing coordination and cooperation among federal, state and local authorities; addressing discrimination in the lending and financial markets and conducting outreach to the public, victims, financial institutions and other organizations. Over the past three fiscal years, the Justice Department has filed more than 10,000 financial fraud cases against nearly 15,000 defendants including more than 2,700 mortgage fraud defendants. For more information on the task force, visit www.stopfraud.gov.
United States Attorney Rod J. Rosenstein praised the FDIC Office of Inspector General, U.S. Secret Service and the Department of Housing and Urban Development Office of Inspector General for their work in the investigation.  Mr. Rosenstein thanked Assistant U.S. Attorneys Sujit Raman and Sean B. O'Connell, who are prosecuting the case.
# # #